CERTIFICATE OF WORD COUNT
No. TBD
Campbell,
Petitioners),
v.
Bennett et al.,
Respondents).

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the CHARLES R. CAMPBELL
Petition for Rehearing contains 1248 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas €teDeus
October 30, 2020

SCP Tracking: Campbell-P.O. Box 38150-Cover TAN

